- - - - - - - - - - - - - - - - --·-                --   - - - -- - -- - - - - - - - - - - - -- -- - - -- - - - - - - - ,




                                                  INSPECTOR GENERAL
                                                    DEPARTMENT OF DEFENSE
                                                   4800 MARK CENTER DRIVE
                                                ALEXANDRIA, VIRGINIA 22350-1500




                                                                                               January 10,2013

               MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                                TECHNOLOGY, AND LOGISTICS
                             ASSISTANT SECRETARY OF THE AIR FORCE (FINANCIAL
                                MANAGEMENT AND COMPTROLLER)
                             DIRECTOR, DEFENSE CONTRACT AUDIT AGENCY
                             NAVAL INSPECTOR GENERAL
                             AUDITOR GENERAL, DEPARTMENT OF THE ARMY

               SUBJECT: Reissuance of DoD Inspector General Report No. DODIG-2012-030R, "Contractor
                        Compliance Varied With Classification of Lobbying Costs and Reporting of
                        Lobbying Activities"

                      We are reissuing the subject report, which we previously issued as DoD Inspector
              General Report No. DODIG-2012-030 on December 12, 2011. On April 5, 2012, we rescinded
              the report because it did not fully disclose the criteria and methodology used to reach some of the
              conclusions. As a result, some information presented in the report was incomplete and
              misleading.

                       We have revised the report and are re-issuing it under No. DODIG-2012-030R. The
               revised report includes a more thorough summary of the audit criteria, our scope, and our
               methodology. The revised report also corrected errors and incorporated information provided to
               the audit team after the publication of the original report.

                      If you have any questions, please contact me at(703) 604-8901.




                                                             Daniel R. Blair
                                                             Deputy Inspector General
                                                             for Auditing
